APPENDIX

1a

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES E. TILLAGE;
JOSEPH M. LOOMIS,
Plaintiffs-Appellees,

No. 18-15288
D.C. No. 3:17-cv06477-VC
*

v.

MEMORANDUM

COMCAST CORPORATION;
COMCAST CABLE
COMMUNICATIONS, LLC,

Filed: June 28, 2019

Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of California
Vince Chhabria, District Judge, Presiding
Argued and Submitted February 12, 2019
San Francisco, California
Before:
McKEOWN, W.
MURGUIA, Circuit Judges.
*

FLETCHER,

and

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

2a
Comcast Corporation (“Comcast”) appeals the
district court’s order denying Comcast’s motion to
compel arbitration. We have jurisdiction under 9
U.S.C. § 16(a)(1) and we affirm.
For the reasons set forth in our concurrently filed
opinion in Blair v. Rent-A-Center, Inc., No. 17-17221,
we hold that California’s McGill rule is not preempted by the Federal Arbitration Act.
In light of this holding, we hold that the arbitration agreement between Comcast and plaintiffs
Charles Tillage and Joseph Loomis is null and void
in its entirety. Section 13(h) of the parties’ subscriber agreement purports to waive plaintiffs’ rights to
pursue public injunctive relief in any forum and so is
unenforceable under California law. See McGill v.
Citibank, 393 P.3d 85, 94 (Cal. 2017). Section 13(h)
also provides that “THIS WAIVER OF CLASS
ACTIONS AND COLLECTIVE RELIEF IS AN
ESSENTIAL PART OF THIS ARBITRATION
PROVISION AND CANNOT BE SEVERED FROM
IT.” This non-severability clause results in the invalidation of the entire arbitration agreement.
Comcast argues that the opt-out clause of their
subscriber agreement removes it from McGill’s coverage because the subscriber agreement waives a
person’s right to pursue a public injunction only if he
or she agrees to arbitrate. That argument fails, as
McGill applies to any consensual waiver of public injunctive relief, irrespective of how the parties choose
to waive that relief. 393 P.3d at 93–94 (quoting Cal.
Civ. Code § 3513).
AFFIRMED.

3a

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAULA L. BLAIR; ANDREA
ROBINSON; HARRIS A. FALECHIA,
Plaintiffs-Appellees,
v.
RENT-A-CENTER, INC., a Delaware
corporation; RENT-A-CENTER WEST,
INC., a Delaware corporation,
Defendants-Appellants.

No. 17-17221
D.C. No.
3:17-cv02335-WHA
OPINION

Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Argued and Submitted February 12, 2019
San Francisco, California
Filed June 28, 2019
Before: M. Margaret McKeown, William A. Fletcher,
and Mary H. Murguia, Circuit Judges.
Opinion by Judge W. Fletcher

4a
*

SUMMARY

Arbitration / Preemption
The panel affirmed the district court’s denial of
Rent-A-Center’s motion to compel arbitration and
motion for a mandatory stay in a putative class action alleging Rent-A-enter charged excessive prices;
and dismissed for lack of jurisdiction Rent-A-Center’s
appeals of the district court’s denial of a discretionary stay and deferral on the motion to strike class
claims.
In McGill v. Citibank, N.A., 393 P.3d 85 (Cal.
2017), the California Supreme Court held that a contractual agreement purporting to waive a party’s
right to seek public injunctive relief in any forum
was unenforceable under California law. The panel
held that the Federal Arbitration Act does not
preempt California’s McGill rule.
Turning to the parties’ 2015 rent-to-own agreement for an air conditioner, the panel held that its
severance clause, which severs plaintiff’s California’s
Karnette Rental-Purchase Act, Unfair Competition
Law, and Consumer Legal Remedies Act claims from
the scope of arbitration, was triggered by the McGill
rule. The panel further held that the severance
clause permitted such claims to be brought in court.
The panel affirmed the district court’s refusal to
impose either a mandatory or discretionary stay on

*

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

5a
the non-arbitrable claims pending arbitration of
plaintiff’s usury claim.
The panel held that it lacked jurisdiction to review the district court’s denial of a discretionary stay
because appellate jurisdiction under the Federal Arbitration Act over interlocutory appeals is limited to
the orders listed in 9 U.S.C. § 16(a)(1). The panel
held that a discretionary stay that was based on the
district court’s inherent authority to manage its
docket was not a stay under section 3 of the Federal
Arbitration Act, and the exceptions that might justify extension of appellate jurisdiction did not apply to
the denial of a stay. The panel also held that it
lacked jurisdiction to review the district court’s decision to defer ruling on Rent-A-Center’s motion to
strike because it was a non-final appealable order
not covered by one of the categories set forth in 9
U.S.C. § 16(a)(1)(A).

6a
COUNSEL
Robert F. Friedman (argued) and Vicki L. Gillete,
Littler Mendelson P.C., Dallas, Texas; Gregory G.
Iskander, Littler Mendelson P.C., Walnut Creek,
California; Kaitlyn M. Burke, Littler Mendelson
P.C., Las Vegas, Nevada; Kirsten F. Gallacher and
Vickie Turner, Wilson Turner Kosmo LLP, San Diego, California; Lily A. North and Henry J. Escher III,
Dechert LLP, San Francisco, California; Christina
Sarchio, Dechert LLP, Washington, D.C.; for Defendants-Appellants.
Michael Rubin (argued) and Eric P. Brown,
Altshuler Berzon LLP, San Francisco, California;
Zach P. Dostart and James T. Hannink, Dostart
Hannink & Coveneny LLP, La Jolla, California; for
Plaintiffs-Appellees.

7a
OPINION
W. FLETCHER, Circuit Judge:
In McGill v. Citibank, N.A., 393 P.3d 85 (Cal.
2017), the California Supreme Court decided that a
contractual agreement purporting to waive a party’s
right to seek public injunctive relief in any forum is
unenforceable under California law. We are asked to
decide in this case whether the Federal Arbitration
1
Act (“FAA”) preempts California’s McGill rule. We
hold it does not.
Plaintiffs brought a putative class action alleging
that defendants Rent-A-Center, Inc. and Rent-ACenter West, Inc. (collectively, “Rent-A-Center”)
charged excessive prices for its rent-to-own plans for
household items. We affirm the district court’s partial denial of Rent-A-Center’s motion to compel arbitration. We also affirm the district court’s denial of
Rent-A-Center’s motion for a mandatory stay of
plaintiffs’ non-arbitrable claims. Finally, we dismiss
for lack of jurisdiction Rent-A-Center’s appeal of the
district court’s denial of a discretionary stay and its
decision to defer ruling on a motion to strike class
action claims.
I. Factual and Procedural Background
Rent-A-Center operates stores that rent household items to consumers for set installment payments. If all payments are made on time, the con1

This panel received briefing and heard argument in two
additional cases raising this same question: McArdle v. AT&T
Mobility LLC (No. 17-17221) and Tillage v. Comcast Corp. (No.
18-15288). Those cases are resolved in separate memorandum
dispositions filed simultaneously with this opinion.

8a
sumer takes ownership of the item. Rent-A-Center
also sets a cash price at which the consumer can purchase the item before the rent-to-own period has
ended.
Paula Blair entered into rent-to-own agreements
with Rent-A-Center for an air conditioner in 2015
and for a used Xbox in 2016. Blair, together with
two other named plaintiffs, filed a class action complaint on March 13, 2017, on behalf of all individuals
who, on or after March 13, 2013, entered into rent-toown transactions with Rent-A-Center in California.
The complaint alleged that Rent-A-Center structured
its rent-to-own pricing in violation of state law.
In 1994, the California Legislature enacted the
Karnette Rental-Purchase Act, Cal. Civ. Code
§§ 1812.620 et seq. (“Karnette Act”), to “prohibit unfair or unconscionable conduct toward consumers”
who enter into rent-to-own agreements.
Id.
§ 1812.621. The Karnette Act sets statutory maximums for both the “total of payments” amount for
installment payments and the “cash price” for rentto-own items. Id. § 1812.644. These maximums are
set in proportion to the “documented actual cost” of
the items to the lessor/seller. Id. § 1812.622(k).
The operative complaint includes claims under
the Karnette Act, as well as the Unfair Competition
Law, Cal. Bus. & Prof. Code §§ 17200 et seq.
(“UCL”), the Consumers Legal Remedies Act, Cal.
Civ. Code §§ 1750 et seq. (“CLRA”), and California’s
anti-usury law, Cal. Const. art. XV, § 1(1). Plaintiffs
seek a “public injunction” on behalf of the people of
California to enjoin future violations of these laws,
and to require that Rent-A-Center provide an accounting of monies obtained from California consumers and individualized notice to those consumers of

9a
their statutory rights. Plaintiffs also seek declaratory relief, compensatory damages and restitution, and
attorneys’ fees and costs.
Of the named plaintiffs, Rent-A-Center has a valid arbitration agreement only with Blair, and only
with respect to her 2015 air conditioner agreement.
Blair opted out of arbitration in her 2016 Xbox
agreement, and Rent-A-Center has been unable to
locate signed arbitration agreements for either of the
other two named plaintiffs. In June 2017, Rent-ACenter filed a motion to compel arbitration of all
claims arising out of Blair’s 2015 agreement, which
reads in relevant part:
(B) What Claims Are Covered: You and
RAC [Rent-A-Center] agree that, in the event
of any dispute or claim between us, either
you or RAC may elect to have that dispute or
claim resolved by binding arbitration. This
agreement to arbitrate is intended to be interpreted as broadly as the FAA allows.
Claims subject to arbitration include . . .
claims that are based on any legal theory
whatsoever, including . . . any statute, regulation or ordinance.
...
(D) Requirement of Individual Arbitration: You and RAC agree that arbitration
shall be conducted on an individual basis,
and that neither you nor RAC may seek, nor
may the Arbitrator award, relief that would
affect RAC account holders other than you.
There will be no right or authority for any
dispute to be brought, heard, or arbitrated as
a class, collective, mass, private attorney

10a
general, or representative action. . . . If there
is a final judicial determination that applicable law precludes enforcement of this Paragraph’s limitations as to a particular claim
for relief, then that claim (and only that
claim) must be severed from the arbitration
and may be brought in court.
The district court concluded that the agreement
violates California’s McGill rule because it constitutes a waiver of Blair’s right to seek public injunctive relief in any forum. The court also held the
McGill rule was not preempted by the FAA. Relying
on the severance clause at the end of Paragraph (D),
the court held that Blair’s Karnette Act, UCL, and
CLRA claims “must be severed from the arbitration.”
The district court granted Rent-A-Center’s motion to
compel arbitration of Blair’s usury claim because
California’s usury law “is not amenable to public injunctive relief.”
The district court denied Rent-A-Center’s motion
to stay proceedings on claims not sent to arbitration—including those of the other two named plaintiffs—pending the outcome of arbitration. It also delayed ruling on Rent-A-Center’s motion to strike
class action claims.
Rent-A-Center appealed the district court’s denial of its motion to compel arbitration of Blair’s Karnette Act, UCL, and CLRA claims. Rent-A-Center
also appealed the court’s denial of the motion to stay
proceedings and its delay in ruling on the motion to
strike.
II. The McGill Rule
Several California consumer protection statutes
make available the remedy of a public injunction,

11a
which is defined as “injunctive relief that has the
primary purpose and effect of prohibiting unlawful
acts that threaten future injury to the general public.” McGill, 393 P.3d at 87. One key difference between a private and public injunction is the primary
beneficiary of the relief. Private injunctions “resolve
a private dispute” between the parties and “rectify
individual wrongs,” though they may benefit the
general public incidentally. Id. at 89 (internal alterations and citation omitted). By contrast, public injunctions benefit “the public directly by the elimination of deceptive practices,” but do not otherwise
benefit the plaintiff, who “has already been injured,
allegedly, by such practices and [is] aware of them.”
Id. at 90 (internal citation and quotations omitted).
The California Supreme Court held in McGill
that an agreement to waive the right to seek public
injunctive relief violates California Civil Code
§ 3513, which provides that “a law established for a
public reason cannot be contravened by a private
agreement.” Id. at 93. Under § 3513, a party to a
private contract may waive a statutory right only if
the “statute does not prohibit doing so, the statute’s
public benefit is merely incidental to its primary
purpose, and waiver does not seriously compromise
any public purpose that the statute was intended to
serve.” Id. at 94 (internal alterations and citations
omitted).
The California Supreme Court found that public
injunctive relief available under the UCL and CLRA,
among other statutes, is “[b]y definition . . . primarily
‘for the benefit of the general public.’” Id. (citing
Broughton v. Cigna Healthplans of Cal., 988 P.2d 67
(Cal. 1999); Cruz v. PacifiCare Health Sys., Inc., 66
P.3d 1157 (Cal. 2003)). Waiver “of the right to seek

12a
public injunctive relief under these statutes would
seriously compromise the public purposes the statutes were intended to serve.” Id. Therefore, such
waivers are “invalid and unenforceable under California law.” Id.
The contract at issue in McGill was an arbitration agreement waiving the plaintiff’s right to seek
public injunctive relief in arbitration and requiring
arbitration of all claims, thereby waiving the plaintiff’s right to seek a public injunction through litigation. Id. at 87–88. Because this waiver prevented
the plaintiff from seeking a public injunction in any
forum, it was unenforceable under California Civil
Code § 3513. Id. at 94.
III. FAA Preemption
Rent-A-Center argues the district court erred in
denying its motion to compel arbitration of Blair’s
Karnette Act, UCL, and CLRA claims, contending
that the McGill rule is preempted by the FAA. We
have appellate jurisdiction under 9 U.S.C.
§ 16(a)(1)(C), which allows an interlocutory appeal of
a district court’s denial of a motion to compel arbitration. We review de novo such a denial. Kilgore v.
KeyBank, Nat’l Ass’n, 718 F.3d 1052, 1057 (9th Cir.
2013) (en banc). We also review de novo a district
court’s preemption analysis. AGG Enters. v. Washington Cty., 281 F.3d 1324, 1327 (9th Cir. 2002).
A. Federal Arbitration Act
The FAA directs courts to treat arbitration
agreements as “valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in equity
for the revocation of any contract.” 9 U.S.C. § 2. The
saving clause of § 2 “permits agreements to arbitrate
to be invalidated by generally applicable contract de-

13a
fenses, such as fraud, duress, or unconscionability,
but not by defenses that apply only to arbitration or
that derive their meaning from the fact that an
agreement to arbitrate is at issue.” AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 339 (2011) (internal quotation omitted). “[T]he saving clause does not
save defenses that target arbitration either by name
or by more subtle methods, such as by ‘interfer[ing]
with fundamental attributes of arbitration.’” Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1622 (2018)
(quoting Concepcion, 563 U.S. at 344).
The Supreme Court has described the FAA as establishing “a liberal federal policy favoring arbitration agreements.” Moses H. Cone Mem’l Hosp. v.
Mercury Constr. Corp., 460 U.S. 1, 24 (1983). While
the “FAA contains no express pre-emptive provision,”
it preempts state law “to the extent that [the state
law] stands as an obstacle to the accomplishment
and execution of the full purposes and objectives of
Congress.” Volt Info. Scis., Inc. v. Bd. of Trs. of Leland Stanford Junior Univ., 489 U.S. 468, 477
(1989). A state-law rule can be preempted by the
FAA in two ways.
First, a state-law rule is preempted if it is not a
“generally applicable contract defense[]” and so does
not fall within the saving clause as a “ground[] . . .
for the revocation of any contract.” 9 U.S.C. § 2; Concepcion, 563 U.S. at 339. A rule is generally applicable if it “appl[ies] equally to arbitration and nonarbitration agreements.” Sakkab v. Luxottica Retail
N. Am., Inc., 803 F.3d 425, 432 (9th Cir. 2015). By
contrast, a rule is not generally applicable if it “prohibits outright the arbitration of a particular type of
claim.” Concepcion, 563 U.S. at 341.

14a
Second, even a generally applicable rule may be
preempted if it “stand[s] as an obstacle to the accomplishment of the FAA’s objectives.” Id. An “overarching purpose of the FAA . . . is to ensure the enforcement of arbitration agreements according to
their terms so as to facilitate streamlined proceedings.” Id. As the Supreme Court recently restated,
“[t]he general applicability of [a] rule [does] not save
it from preemption under the FAA” if the rule “interferes with fundamental attributes of arbitration.”
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407, 1418
2
(2019) (citing Concepcion, 563 U.S. at 344).
B. Concepcion and Sakkab
The Supreme Court’s decision in Concepcion and
our decision in Sakkab guide our analysis. Indeed,
our decision in Sakkab all but decides this case.
In Concepcion, the Supreme Court considered
whether the FAA preempted California’s Discover
Bank rule that class waivers in most consumer arbitration agreements were unconscionable under California law. See Discover Bank v. Superior Court, 113
P.3d 1100 (Cal. 2005). The Court recognized that
unconscionability is “a doctrine normally thought to
be generally applicable.” Concepcion, 563 U.S. at
341. The Court nonetheless held the Discover Bank
rule was preempted because it “interfere[d] with
fundamental attributes of arbitration and thus cre2

The parties filed notices of supplemental authority pursuant to Federal Rule of Appellate Procedure 28(j) informing this
court of the Supreme Court’s decision in Lamps Plus, which
was published after oral argument in this case. We have reviewed the Supreme Court’s decision and considered it in our
analysis.

15a
ate[d] a scheme inconsistent with the FAA.” Id. at
344. According to the Court, “the switch from bilateral to class arbitration sacrifices the principal advantage of arbitration—its informality—and makes
the process slower, more costly, and more likely to
generate procedural morass than final judgment.”
Id. at 348. The Court recognized that “class arbitration requires procedural formality” because if “procedures are too informal, absent class members would
not be bound by the arbitration”—that is, due process compels procedural complexity in class arbitration. Id. at 349 (emphasis in original). The Court
noted that “class arbitration greatly increases risks
to defendants” because it combines high stakes with
limited appellate review. Id. at 350–51. The Court
concluded that classwide arbitration is therefore “not
arbitration as envisioned by the FAA” and “lacks its
benefits.” Id. at 351.
In the wake of Concepcion, we considered in
Sakkab whether the FAA preempts California’s Iskanian rule, which bars contractual waiver in any
fora of representative claims under California’s Private Attorneys General Act of 2004 (“PAGA”), Cal.
Lab. Code §§ 2698 et seq. See Sakkab, 803 F.3d at
427; Iskanian v. CLS Transp. L.A., LLC, 327 P.3d
129 (Cal. 2014). PAGA “authorizes an employee to
bring an action for civil penalties on behalf of the
state against his or her employer for Labor Code violations committed against the employee and fellow
employees, with most of the proceeds of that litigation going to the state.” Iskanian, 327 P.3d at 133.
We concluded that the Iskanian rule is generally
applicable because it “bars any waiver of PAGA
claims, regardless of whether the waiver appears in
an arbitration agreement or a non-arbitration

16a
agreement.” Sakkab, 803 F.3d at 432. We also noted
that the rule does not “prohibit the arbitration of any
type of claim.” Id. at 434. We recognized that although the purpose of the FAA is “to ensure that private arbitration agreements are enforced according
to their terms,” the saving clause of § 2 would be
rendered “wholly ineffectual” if that purpose overrode all state-law contract defenses. Id. (internal
quotations and citations omitted). Instead, “Congress plainly . . . intend[ed] to preempt . . . only those
[state contract defenses] that ‘interfere[] with arbitration.’” Id. (quoting Concepcion, 563 U.S. at 346).
We held the Iskanian rule does not interfere with
arbitration. Id. at 435. Most important, the Iskanian rule does “not diminish parties’ freedom to
select informal arbitration procedures.” Id. PAGA
actions, unlike class actions, do not “resolve[] the
claims of other employees,” so “there is no need to
protect absent employees’ due process rights in
PAGA arbitrations.” Id. at 436. Nor does California
state law “purport[] to limit parties’ right to use informal procedures, including limited discovery.” Id.
at 438–39. Finally, while PAGA actions “may . . . involve high stakes” due to “hefty civil penalties,” the
FAA does not preempt causes of action merely because they impose substantial liability. Id. at 437.
We concluded that “the Iskanian rule does not conflict with the FAA, because it leaves parties free to
adopt the kinds of informal procedures normally
available in arbitration.” Id. at 439.
C. Discussion
1. Generally Applicable Contract Defense
The McGill rule, like the Iskanian rule, is a generally applicable contract defense. The California

17a
Supreme Court specified that a waiver of public injunctive relief in “any contract—even a contract that
has no arbitration provision”—is “unenforceable under California law.” McGill, 393 P.3d at 94 (emphasis in original). The McGill rule thus applies “equally to arbitration and non-arbitration agreements.”
Sakkab, 803 F.3d at 432.
Rent-A-Center argues that the McGill rule is
equivalent to an earlier and now-preempted California rule called the Broughton-Cruz rule.
See
Broughton, 988 P.2d 67; Cruz, 66 P.3d 1157. The
Broughton-Cruz
rule
had
established
that
“[a]greements to arbitrate claims for public injunctive relief . . . are not enforceable in California.”
McGill, 393 P.3d at 90. We held in Ferguson v. Corinthian Colleges, Inc., 733 F.3d 928, 934 (9th Cir.
2013), that the FAA preempted the Broughton-Cruz
rule because it “prohibits outright” the arbitration of
public injunctive relief. The McGill rule bears no resemblance to the Broughton-Cruz rule. It shows no
hostility to, and does not prohibit, the arbitration of
public injunctions. It merely prohibits the waiver of
the right to pursue public injunctive relief in any forum; the Broughton-Cruz rule specifically excluded
public injunctive claims from arbitration.
The McGill rule is also unlike the rule at issue in
Kindred Nursing Centers Ltd. Partnership v. Clark,
137 S. Ct. 1421 (2017). In that case, the Supreme
Court struck down a judge-made Kentucky rule that
an agent with general power of attorney could not
waive a principal’s right to a jury trial without explicit consent of the principal. Id. at 1425. The rule
had been invoked to invalidate two arbitration
agreements. Id. Though the rule did not explicitly
forbid the arbitration of claims, the Court held that

18a
“a legal rule hinging on the primary characteristic of
an arbitration agreement—namely, a waiver of the
right to go to court and receive a jury trial”—
impermissibly targets arbitration. Id. at 1427. Unlike the Kentucky rule, the McGill rule does not “rely
on the uniqueness of an agreement to arbitrate” to
categorically disfavor arbitration as a forum. See id.
at 1426 (quoting Concepcion, 563 U.S. at 341). To
the contrary, the McGill rule expresses no preference
as to whether public injunction claims are litigated
or arbitrated, it merely prohibits the waiver of the
right to pursue those claims in any forum.
Moreover, the Court in Kindred noted that the
underlying principle behind the Kentucky rule—that
an agent cannot waive a principal’s “fundamental
constitutional right” without express consent—had
never been applied outside the context of arbitration.
Id. at 1427–28. By contrast, the McGill rule derives
from a general and long-standing prohibition on the
private contractual waiver of public rights. California courts have repeatedly invoked California Civil
Code § 3513 to invalidate waivers unrelated to arbitration. See, e.g., County of Riverside v. Superior
Court, 42 P.3d 1034, 1042 (Cal. 2002) (holding that a
police officer’s “blanket waiver” of his rights under
the Public Safety Officers Procedural Bill of Rights
Act as a condition of his employment would be inconsistent with § 3513); Covino v. Governing Bd., 142
Cal. Rptr. 812, 817 (Ct. App. 1977) (invalidating under § 3513 a teacher’s waiver of his right under the
Education Code to become a contract, rather than
temporary, employee); Benane v. Int’l Harvester Co.,
299 P.2d 750, 753 (Cal. Ct. App. 1956) (invalidating
under § 3513 a collective bargaining agreement provision waiving employees’ rights under the Election

19a
Code to be paid for time taken off work to vote); De
Haviland v. Warner Bros. Pictures, 153 P.2d 983, 988
(Cal. Ct. App. 1944) (invalidating under § 3513 a
movie star’s contractual waiver of the Labor Code’s
seven-year limit on personal service contracts); Cal.
Powder Works v. Atl. & Pac. R.R. Co., 45 P. 691, 693
(Cal. 1896) (relying on § 3513 to construe a common
carrier’s contractual exemption from liability to exclude liability caused by the carrier’s negligence because that liability is “imposed upon it by law”).
In sum, the McGill rule is a generally applicable
contract defense derived from long-established California public policy. It is a “ground[] . . . for the revocation of any contract” and falls within the FAA’s
saving clause at the first step of the preemption
analysis. 9 U.S.C. § 2.
2. Interference with Arbitration
“[A] doctrine normally thought to be generally
applicable” is nonetheless preempted by the FAA if it
“stand[s] as an obstacle to the accomplishment of the
FAA’s objectives.” Concepcion, 563 U.S. at 341, 343.
One objective of the FAA is to enforce arbitration
agreements according to their terms “so as to facilitate streamlined proceedings.” Id. at 344. However,
we “do not read Concepcion to require the enforcement of all waivers of representative claims in arbitration agreements.” Sakkab, 803 F.3d at 436. Instead, “Congress plainly . . . intend[ed] to preempt
. . . only those [state contract defenses] that ‘interfere[] with arbitration.’” Id. at 434 (quoting Concepcion, 563 U.S. at 346). Accordingly, we look at
“whether refusing to enforce waivers” of a claim that
is “technically denominated” as representative “will
deprive parties of the benefits of arbitration.” Id. at
436.

20a
Our decision in Sakkab is squarely on point. The
McGill rule, like the Iskanian rule, does not “deprive
parties of the benefits of arbitration.” See id. This
characteristic distinguishes both rules from the Discover Bank rule barring the waiver of class actions at
issue in Concepcion. A major concern in Concepcion
was that compelling classwide arbitration “requires
procedural formality,” and, in so doing, “makes the
process slower, more costly, and more likely to generate procedural morass than final judgment.” Concepcion, 563 U.S. at 348–49. By contrast, neither
state law nor constitutional due process gives rise to,
let alone “requires[,] procedural formality” in the arbitration of public injunctive relief.
Public injunctive relief under the Karnette Act,
UCL, and CLRA does not require formalities inconsistent with arbitration. In McGill, the California
Supreme Court expressly held that claims for public
injunctive relief need not comply with state-law class
procedures. McGill, 393 P.3d at 93. We are bound
by this ruling. See Hemmings v. Tidyman’s Inc., 285
F.3d 1174, 1203 (9th Cir. 2002). Nor does constitutional due process require unusual procedures inconsistent with arbitration. In Sakkab, we held that the
due process rights of absent employees are not implicated by the arbitration of a PAGA claim because the
claim is brought on behalf of the state, which is the
“real part[y] in interest.” Sakkab, 803 F.3d at 436.
The small portion of a PAGA penalty distributed to
employees is incidental to the statute’s public enforcement purpose and effect. Similarly, here, public
injunction claims are brought for the benefit of the
general public, not on behalf of specific absent parties.

21a
Crucially, arbitration of a public injunction does
not interfere with the bilateral nature of a typical
consumer arbitration. The rules struck down in
Concepcion and Epic Systems “impermissibly disfavor[ed] arbitration” because they rendered an
agreement “unenforceable just because it require[d]
bilateral arbitration.” Epic Systems, 138 S. Ct. at
1623 (emphasis removed). The McGill rule does no
such thing. The McGill rule leaves undisturbed an
agreement that both requires bilateral arbitration
and permits public injunctive claims. A plaintiff requesting a public injunction files the lawsuit “on his
or her own behalf” and retains sole control over the
suit. McGill, 393 P.3d at 92. Nothing in the McGill
rule requires a “switch from bilateral . . . arbitration”
to a multi-party action. Concepcion, 563 U.S. at 348.
It is possible that arbitration of a public injunction will in some cases be more complex than arbitration of a conventional individual action or a representative PAGA claim. But as with PAGA actions,
the complexity involved in resolving a request for a
public injunction “flows from the substance of the
claim itself, rather than any procedures required to
adjudicate it (as with class actions).” Sakkab, 803
F.3d at 438. The distinction between substantive
and procedural complexity is relevant to the preemption analysis because the Court found in Concepcion
that classwide arbitration’s “procedural formality”
frustrated the FAA’s objective of ensuring speedy,
cost-effective, and informal arbitration. Concepcion,
563 U.S. at 348–49. But “potential complexity
should not suffice to ward off arbitration” of substantively complex claims. Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 633
(1985). A state-law rule that preserves the right to

22a
pursue a substantively complex claim in arbitration
without mandating procedural complexity does not
frustrate the FAA’s objectives.
One theoretical distinction between arbitrating
PAGA claims and arbitrating public injunctive
claims is the potential for multiple injunctions
against the same defendant imposing conflicting obligations, a scenario without an obvious analogue in
the PAGA context. These concerns are conjectural
and unpersuasive. We are unaware of a single such
conflict in the decades public injunctive relief has
been available in California courts. Even assuming
such conflicts are (for some unidentified reason) imminent in the arbitral forum, the defendant can always inform the arbitrator of its existing obligations.
We see no reason to believe that an arbitrator would
then impose an irreconcilable obligation on the defendant. Nor would complex procedures be needed to
avoid such conflicts: the defendant need simply tell
the arbitrator. If the initial proceedings were confidential, the defendant could, to the extent necessary,
obtain permission from the earlier arbitrator to make
such a limited disclosure.
Ongoing injunctions sometimes need monitoring
or modification. The need for monitoring and modification is inherent in all injunctive relief, public and
private, and such monitoring and modification is not
incompatible with informal arbitration. Arbitrators
have long had the authority and ability to address
requests for injunctive relief within bilateral arbitration. See AAA Commercial Arbitration Rule 47(a)
(“The arbitrator may grant any remedy or relief that
the arbitrator deems just and equitable and within
the scope of the agreement of the parties[.]”). We are
not concerned that arbitrating public injunctions

23a
would produce procedural complexities not already
common to the arbitration of private injunctions.
Nor are public injunctions unique because of the
need to weigh the public interest in deciding whether
to grant an injunction. Judges and arbitrators routinely consider the public interest when issuing private injunctions. See, e.g., Sw. Voter Reg. Educ. Project v. Shelley, 344 F.3d 914, 917 (9th Cir. 2003) (en
banc) (“The district court must also consider whether
the public interest favors issuance of the injunction”).
Injunctive relief in antitrust actions, for example, requires “reconciliation between the public interest and
private needs as well as between competing private
claims.” See California v. Am. Stores Co., 495 U.S.
271, 284 (1990).
Rent-A-Center’s contention that arbitration of a
public injunction requires expansive discovery and
presentation of class-wide evidence is mistaken. We
are unconvinced by Rent-A-Center’s suggestion that
under Cisneros v. U.D. Registry, Inc., 46 Cal. Rptr.
2d 233 (Ct. App. 1995), a public injunction claim
“demands class-wide evidence.” That case merely
stands for the unremarkable notion that evidence of
“similar practices involving other members of the
public who are not parties to the action” may be relevant to and admissible to support a public injunction
claim. Id. at 244. The Court of Appeal said nothing
about the discoverability of such evidence, nor did it
limit parties’ ability to agree ex ante on the scope of
discovery.
The parties remain free to reasonably limit by ex
ante agreement discovery and presentation of evidence, as they may with any other arbitrable claim.
Rent-A-Center chose to omit any such provision from
the 2015 air conditioner agreement, and, in the ab-

24a
sence of such an agreement, the breadth of discovery
in a public injunctive action, as in a PAGA action,
“flows from the substance of the claim itself, rather
than any procedures required to adjudicate it.” Sakkab, 803 F.3d at 438. Such is the case in the antitrust context as well, and, as we know, antitrust
claims are unquestionably arbitrable. See Mitsubishi
Motors Corp., 473 U.S. at 628–40.
Finally, a public injunction may involve high
stakes and could affect a lucrative business practice.
But so could a private injunctive, declaratory, or
damages action. As we explained in Sakkab, “the
FAA would not preempt a state statutory cause of
action that imposed substantial liability merely because the action’s high stakes would arguably make
it poorly suited to arbitration.” Sakkab, 803 F.3d at
437 (citing Medtronic, Inc. v. Lohr, 518 U.S. 470, 485
(1996)). Where a public injunction does not interfere
with the informal, bilateral nature of traditional consumer arbitration, high stakes alone do not warrant
FAA preemption.
As we recognized in Sakkab, arbitration is “[i]n
many ways . . . well suited to resolving complex disputes, provided that the parties are free to decide
how the arbitration will be conducted.” Id. at 438.
Like the Iskanian rule, the McGill rule does not
“mandate procedures that interfere with arbitration.” See id. Arbitration of public injunctive relief
accordingly need not “sacrifice[] the principal advantage of arbitration—its informality.” See Concepcion, 563 U.S. at 348. We hold that the FAA does not
preempt the McGill rule.

25a
IV. Construction of the Arbitration Agreement
Having concluded that the FAA does not preempt
the McGill rule, we now turn to the 2015 air conditioner agreement itself to determine its scope and
effect. Rent-A-Center contends that the agreement
requires Blair to submit her Karnette Act, UCL, and
CLRA claims to arbitration for determination of liability. According to Rent-A-Center, only after the arbitrator has determined liability can Blair go to court
3
to seek the remedy of a public injunction. We disagree.
The severance clause in the 2015 agreement instructs us to sever Blair’s Karnette Act, UCL, and
CLRA claims from the scope of arbitration, and to
permit such claims to be brought in court. The
clause reads:
If there is a final judicial determination that
applicable law precludes enforcement of this
Paragraph’s limitations as to a particular
claim for relief, then that claim (and only
that claim) must be severed from the arbitration and may be brought in court.
The severance clause is triggered by the McGill rule.
Paragraph (D) of the agreement prohibits the arbitrator from awarding “relief that would affect RAC
account holders other than you,” and eliminates any
“right or authority for any dispute to be brought,
heard, or arbitrated as a class, collective, mass, pri3

Rent-A-Center alternatively argues that the McGill rule
does not apply because Blair’s requested relief does not amount
to a public injunction. Not so. Blair seeks to enjoin future violations of California’s consumer protection statutes, relief oriented to and for the benefit of the general public.

26a
vate attorney general, or representative action.”
Paragraph (D) thus precludes the arbitrator from
awarding public injunctive relief. Paragraph (B) of
the agreement permits Rent-A-Center to demand
that all disputes be resolved in arbitration, which
precludes Blair from seeking public injunctive relief
in court. Read together, Paragraphs (B) and (D)
waive Blair’s right to seek a public injunction “in any
forum.” McGill, 393 P.3d at 87. The McGill rule is
“applicable law” that “precludes enforcement” of
Paragraph (D)’s limitations as to Blair’s Karnette
Act, UCL, and CLRA claims.
Rent-A-Center contends that the severance
clause carves out only the potential public injunctive
remedy for these causes of action, requiring the arbitrator to adjudicate liability first. Rent-A-Center
reads “claim for relief” in the severance clause to refer only to a particular remedy, not to the underlying
claim. The district court found Rent-A-Center’s
reading “unnatural and unpersuasive,” and we
agree. Parties are welcome to agree to split decision
making between a court and an arbitrator in this
manner. Cf. Ferguson, 733 F.3d at 937. But they did
not do so here.
The severance clause refers to “a particular claim
for relief,” but it then goes on to require, a few words
later in the same sentence, severance of “that claim”
from the arbitration in order to allow it to “be
brought in court.” A “claim for relief,” as that term is
ordinarily used, is synonymous with “claim” or
“cause of action.” See, e.g., Fed. R. Civ. P. 8(a) (interchangeably using “claim” and “claim for relief,” and
using “demand for relief sought” to refer specifically
to requested remedy); Claim, Black’s Law Dictionary
(10th ed. 2014) (noting that a “claim” is “[a]lso

27a
termed claim for relief”); Claim for relief, Black’s
Law Dictionary (10th ed. 2014) (referencing definition for “claim”); In re Ocwen Loan Serv., LLC Mortg.
Serv. Litig., 491 F.3d 638, 646 (7th Cir. 2007) (“The
eighth claim is purely remedial; it seeks injunctive
relief. Of course it is not a claim, that is, a cause of
action, and should not have been labeled as such
. . . .”); Cannon v. Wells Fargo Bank N.A., 917 F.
Supp. 2d 1025, 1031 (N.D. Cal. 2013) (“[E]quitable
relief is not a claim for relief but rather only a remedy.”). We read the clause, as did the district court, to
provide that the entire claim be severed for judicial
determination.
V. Other Issues
The district court refused to impose either a
mandatory or discretionary stay on the nonarbitrable claims pending arbitration of Blair’s usury
claim.
We have jurisdiction under 9 U.S.C.
§ 16(a)(1)(A) to review the denial of a mandatory
stay, which is a question of law that we review de
novo. Under 9 U.S.C. § 3, a district court must stay
proceedings for claims and issues “referable to arbitration” pending resolution of the arbitration. See
Leyva v. Certified Grocers of Cal., Ltd., 593 F.2d 857,
863 (9th Cir. 1979). Only the usury claim was “referable to arbitration,” so Rent-A-Center was not entitled to a stay under § 3 for any of the other claims.
See id. We affirm the district court’s ruling.
We lack jurisdiction to review the district court’s
denial of a discretionary stay. See Portland Gen.
Elec. Co. v. Liberty Mut. Ins. Co., 862 F.3d 981, 986
(9th Cir. 2017). Our appellate jurisdiction under the
FAA over interlocutory appeals is limited to the orders listed in 9 U.S.C. § 16(a)(1). Kum Tat Ltd. v.
Linden Ox Pasture, LLC, 845 F.3d 979, 982 (9th Cir.

28a
2017). Relevant here, appellate jurisdiction extends
to orders “refusing a stay of any action under section
3 of this title.” 9 U.S.C. § 16(a)(1)(A). A discretionary
stay is based on the district court’s inherent authority to manage its docket and is not “a stay . . . under
section 3” of the FAA. See Portland Gen. Elec. Co.,
862 F.3d at 984. The exceptions that, at times, justify extension of appellate jurisdiction over the imposition of a discretionary stay do not apply to the denial
of a stay. Cf. Dependable Highways Exp. Inc. v. Navigators Ins. Co., 498 F.3d 1059, 1063–64 (9th Cir.
2007).
We also lack jurisdiction to review the district
court’s decision to defer ruling on Rent-A-Center’s
motion to strike because it is a non-final order not
covered by one of the categories set forth in 9 U.S.C.
§ 16(a)(1). See Kum Tat Ltd., 845 F.3d at 982.
Conclusion
The district court’s denials of Rent-A-Center’s
motion to compel arbitration and motion for a mandatory stay are AFFIRMED.
Rent-A-Center’s appeals of the district court’s
denial of a discretionary stay and deferral on the motion to strike class claims are DISMISSED for lack
of jurisdiction.

29a

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
DAN ADKINS, et al.,
Plaintiffs,

Case No. 16-cv-05969-VC
Re: Dkt. Nos. 115, 151

v.
COMCAST
CORPORATION, et al., Filed: Feb. 15, 2018
Defendants.
CHARLES TILLAGE,
et al.,

Case No. 17-cv-06477-VC

ORDER DENYING
Plaintiffs,
MOTION TO COMPEL
ARBITRATION,
v.
GRANTING LEAVE TO
COMCAST
AMEND COMPLAINT,
CORPORATION, et al., DENYING MOTION TO
Defendants. STRIKE CLASS
ALLEGATIONS,
DISMISSING CERTAIN
NAMED PLAINTIFFS,
DENYING MOTION TO
CONSOLIDATE CASES,
AND GRANTING
MOTION TO REOPEN
DISCOVERY
Re: Dkt. Nos. 10, 16

30a
1. The defendants’ motion to compel arbitration
in the Tillage case (No. 17-cv-06477) is denied. The
arbitration agreement in this case waives an individual's right to bring a public injunctive relief claim
in any forum. See 2017 Subscriber Agreement
§ 13(h) (Dkt. No. 28-1, Ex. A at 14). Such a waiver is
unenforceable under state law. McGill v. Citibank,
N.A., 2 Cal. 5th 945, 951 (2017); see also Blair v.
Rent-A-Center, Inc., No. C 17-02335 WHA, 2017 WL
4805577, at *2-6 (N.D. Cal. Oct. 25, 2017); McArdle
v. AT&T Mobility LLC, No. 09-cv-01117-CW, 2017
WL 4354998, at *3-4 (N.D. Cal. Oct. 2, 2017). To the
extent that Comcast argues the McGill rule is
preempted by the Federal Arbitration Act, McGill
1
itself explains why it is not. McGill, 2 Cal. 5th at
961-66; see also Blair, 2017 WL 4805577, at *4-5;
McArdle, 2017 WL 4354998, at *3-4. Moreover, the
agreement includes language that invalidates the
entire arbitration clause if the waiver is invalidated.
See 2017 Subscriber Agreement § 13(h); see also
McArdle, 2017 WL 4354998, at *4-5. Therefore, the
motion to compel arbitration is denied. Any request
1

Contrary to Comcast's assertions, Ferguson v. Corinthian
Colleges, Inc., does not apply. Ferguson held that the Federal
Arbitration Act preempted California's rule prohibiting parties
from compelling the arbitration of public injunctive relief
claims. 733 F.3d 928, 932-37 (9th Cir. 2013). McGill applies
because it held that waivers of the right to bring claims for public injunctive relief in any forum are unenforceable. That is
precisely the kind of waiver here. Given the similarities between public injunctive relief claims and representative actions
under the Private Attorneys General Act of 2004 ("PAGA"), it is
also worth noting that the Ninth Circuit has held that California's rule barring waivers of PAGA claims is not preempted by
the Federal Arbitration Act. See Sakkab v. Luxottica Retail
North America, Inc., 803 F.3d 425, 431-40 (9th Cir. 2015).

31a
to stay this case pending appeal of this ruling must
be filed within 14 days of this order. It can be filed
as an administrative request under Local Rule 7-11.
2. The plaintiffs in the Adkins case (No. 16-cv05969) are granted leave to amend their complaint to
add a public injunctive relief claim. The parties are
ordered to meet and confer within 7 days of this order to determine how the complaint will be amended.
The amended complaint must be filed within 14 days
of this order.
3. The defendants' motion to strike the class allegations in the Tillage case is denied. The parties
have stipulated that plaintiffs Dan Adkins and
Christopher Robertson should be dismissed from the
Tillage case since they are bringing their claims in
the Adkins case. Therefore, Adkins and Robertson
are dismissed from the Tillage case.
4. The plaintiffs' motion to consolidate the two
cases is denied.
5. The plaintiffs' motion to reopen discovery in
the Adkins case is granted. Discovery will be reopened as it relates to the issue of Comcast's evidence
preservation, to the changes made to the deposition
of Tom Karnishak, and to the addition of the public
injunctive relief claim. Comcast is ordered to pay the
costs of the resumed deposition of Karnishak, including any travel costs incurred by plaintiffs' counsel.
The parties must file all discovery requests within 28
days of this order. All discovery disputes must be
presented to Judge Ryu.

32a
6. The schedule for the Adkins case will be as
follows: the discovery cutoff is June 15, 2018; the
last day for a hearing on dispositive motions is October 4, 2018; the pretrial conference will take place on
December 3, 2018; and trial will begin December 10,
2018.
IT IS SO ORDERED.
Dated: February 15, 2018
__/s/ Vince Chhabria________
VINCE CHHABRIA
United States District Judge

33a

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES E. TILLAGE;
JOSEPH M. LOOMIS,
Plaintiffs-Appellees,
v.
COMCAST CORPORATION;
COMCAST CABLE
COMMUNICATIONS, LLC,

No. 18-15288
D.C. No. 3:17-cv06477-VC
Northern District of
California,
San Francisco
ORDER
Filed: Jan. 17, 2020

Defendants-Appellants.
Before:
McKEOWN, W.
MURGUIA, Circuit Judges.

FLETCHER,

and

The panel has voted to deny the petition for panel rehearing and rehearing en banc, filed by defendants-appellants on August 9, 2019 (Dkt. Entry 56).
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing
en banc is DENIED.

34a

APPENDIX E
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. art. VI, cl. 2
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof;
and all Treaties made, or which shall be made, under
the Authority of the United States, shall be the supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the Constitution or Laws of any State to the Contrary notwithstanding.
9 U.S.C. § 2.

Validity, irrevocability, and enforcement of agreements to arbitrate

A written provision in any maritime transaction
or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction,
or the refusal to perform the whole or any part
thereof, or an agreement in writing to submit to arbitration an existing controversy arising out of such a
contract, transaction, or refusal, shall be valid, irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.

35a
9 U.S.C. §4. Failure to arbitrate under agreement; petition to United States
court having jurisdiction for order to compel arbitration; notice
and service thereof; hearing and
determination
A party aggrieved by the alleged failure, neglect,
or refusal of another to arbitrate under a written
agreement for arbitration may petition any United
States district court which, save for such agreement,
would have jurisdiction under title 28, in a civil action or in admiralty of the subject matter of a suit
arising out of the controversy between the parties,
for an order directing that such arbitration proceed
in the manner provided for in such agreement. Five
days' notice in writing of such application shall be
served upon the party in default. Service thereof
shall be made in the manner provided by the Federal
Rules of Civil Procedure. The court shall hear the
parties, and upon being satisfied that the making of
the agreement for arbitration or the failure to comply
therewith is not in issue, the court shall make an order directing the parties to proceed to arbitration in
accordance with the terms of the agreement. The
hearing and proceedings, under such agreement,
shall be within the district in which the petition for
an order directing such arbitration is filed. If the
making of the arbitration agreement or the failure,
neglect, or refusal to perform the same be in issue,
the court shall proceed summarily to the trial thereof. If no jury trial be demanded by the party alleged
to be in default, or if the matter in dispute is within
admiralty jurisdiction, the court shall hear and determine such issue. Where such an issue is raised,
the party alleged to be in default may, except in cas-

36a
es of admiralty, on or before the return day of the notice of application, demand a jury trial of such issue,
and upon such demand the court shall make an order
referring the issue or issues to a jury in the manner
provided by the Federal Rules of Civil Procedure, or
may specially call a jury for that purpose. If the jury
find that no agreement in writing for arbitration was
made or that there is no default in proceeding thereunder, the proceeding shall be dismissed. If the jury
find that an agreement for arbitration was made in
writing and that there is a default in proceeding
thereunder, the court shall make an order summarily directing the parties to proceed with the arbitration in accordance with the terms thereof.

37a

APPENDIX F
13. BINDING ARBITRATION
a. Purpose. Any Dispute involving you and us
shall be resolved through individual arbitration. In arbitration, there is no judge or jury
and there is less discovery and appellate review than in court.
b. Definitions. This Arbitration Provision shall
be broadly interpreted. “Dispute” means any
claim or controversy related to us or our relationship, including but not limited to any and
all: (1) claims for relief and theories of liability, whether based in contract, tort, fraud, negligence, statute, regulation, ordinance, or otherwise; (2) claims that arose before this or any
prior Agreement; (3) claims that arise after
the expiration or termination of this Agreement, and (4) claims that are the subject of
purported class action litigation. As used in
this Arbitration Provision, “us” means Comcast and any of its predecessors, successors,
assigns, parents, subsidiaries, and affiliates,
and each of their respective officers, directors,
employees and agents, and “you” means you
and any users or beneficiaries of the XFINITY
Service(s) or Equipment.
c. Exclusions.
NOTWITHSTANDING THE
FOREGOING, THE FOLLOWING DISPUTES
WILL
NOT
BE
SUBJECT
TO
ARBITRATION: (i) DISPUTES RELATING
TO
THE
SCOPE,
VALIDITY,
OR
ENFORCEABILITY OF THIS ARBITRATION

38a
PROVISION; (ii) DISPUTES THAT ARISE
BETWEEN US AND ANY STATE OR LOCAL
REGULATORY AUTHORITY OR AGENCY
THAT IS EMPOWERED BY FEDERAL,
STATE, OR LOCAL LAW TO GRANT A
FRANCHISE UNDER 47 U.S.C. § 522(9);
AND (iii) DISPUTES THAT CAN ONLY BE
BROUGHT
BEFORE
THE
LOCAL
FRANCHISE AUTHORITY UNDER THE
TERMS OF THE FRANCHISE.
d. Right to Opt Out. IF YOU DO NOT WISH
TO ARBITRATE DISPUTES, YOU MAY
DECLINE TO HAVE YOUR DISPUTES
WITH US ARBITRATED BY NOTIFYING
US, WITHIN 30 DAYS OF YOUR FIRST
XFINITY SERVICE ACTIVATION, BY
VISITING
WWW.XFINITY.COM/
ARBITRATIONOPTOUT, OR IN WRITING
BY MAIL TO COMCAST 1701 JOHN F.
KENNEDY BLVD., PHILADELPHIA, PA
19103-2838,
ATTN:
LEGAL
DEPARTMENT/ARBITRATION.
YOUR
WRITTEN NOTIFICATION TO US MUST
INCLUDE YOUR NAME, ADDRESS AND
OUR ACCOUNT NUMBER AS WELL AS A
CLEAR STATEMENT THAT YOU DO NOT
WISH TO RESOLVE DISPUTES WITH US
THROUGH
ARBITRATION.
YOUR
DECISION TO OPT OUT OF THIS
ARBITRATION PROVISION WILL HAVE NO
ADVERSE
EFFECT
ON
YOUR
RELATIONSHIP WITH US OR SERVICE(S)
PROVIDED BY US.
IF YOU HAVE
PREVIOUSLY
OPTED
OUT
OF
ARBITRATION WITH RESPECT TO THE

39a
ACCOUNT
GOVERNED
BY
THIS
AGREEMENT, YOU DO NOT NEED TO DO
SO AGAIN. YOU MUST SEPARATELY OPT
OUT FOR EACH ACCOUNT UNDER WHICH
YOU RECEIVE SERVICES. ANY OPTOUTS
SUBMITTED AFTER THIS PERIOD WILL
NOT BE CONSIDERED EFFECTIVE.
e. Initiation
of
Arbitration
Proceeding/Selection of Arbitrator. The party initiating the arbitration proceeding may open a
case with the American Arbitration Association (“AAA”) by visiting its website
(www.adr.org) or calling its toll free number
(1-800-778-7879). You may deliver any required or desired notice to us by mail to Comcast, 1701 JFK Boulevard, Philadelphia, PA
19103-2838 – ATTN: LEGAL DEPARTMENT.
f. Right to Sue in Small Claims Court. Notwithstanding anything in this Arbitration
Provision to the contrary, either you or we
may elect to have an action heard in a small
claims court in the area where you receive(d)
Service(s) from us if the claim is not aggregated with the claim of any other person and if
the amount in controversy is properly within
the jurisdiction of the small claims court.
g. Arbitration Procedures. This Arbitration
Provision shall be governed by the Federal Arbitration Act. Arbitrations shall be administered by the AAA pursuant to its Consumer
Arbitration Rules (the “AAA Rules”) as modified by the version of this Arbitration Provision that is in effect when you notify us about
your Dispute. You can obtain the AAA Rules
from the AAA by visiting its website

40a
(www.adr.org) or calling its toll-free number
(1-800-778-7879). If there is a conflict between
this Arbitration Provision and the rest of this
Agreement, this Arbitration Provision shall
govern. If there is a conflict between this Arbitration Provision and the AAA rules, this
Arbitration Provision shall govern. If the AAA
will not administer a proceeding under this
Arbitration Provision as written, the parties
shall agree on a substitute arbitration organization. If the parties cannot agree, the parties
shall mutually petition a court of appropriate
jurisdiction to appoint an arbitration organization that will administer a proceeding under
this Arbitration Provision as written applying
the AAA Consumer Arbitration Rules. A single arbitrator will resolve the Dispute. Unless
you and we agree otherwise, any arbitration
hearing will take place at a location convenient to you in the area where you receive Service(s) from us. If you no longer receive Service(s) from us when you notify us of your Dispute, then any arbitration hearing will take
place at a location convenient to you in the
county where you reside when you notify us of
your Dispute provided that we offer Service(s)
in that county, or in the area where you received Service(s) from us at the time of the
events giving rise to your Dispute. The arbitrator will honor claims of privilege recognized
by law and will take reasonable steps to protect customer account information and other
confidential or proprietary information. The
arbitrator shall issue a reasoned written decision that explains the arbitrator’s essential
findings and conclusions. The arbitrator’s

41a
award may be entered in any court having jurisdiction over the parties only if necessary for
purposes of enforcing the arbitrator’s award.
An arbitrator’s award that has been fully satisfied shall not be entered in any court.
h. Waiver of Class Actions and Collective
Relief. THERE SHALL BE NO RIGHT OR
AUTHORITY FOR ANY CLAIMS TO BE
ARBITRATED OR LITIGATED ON A CLASS
ACTION, JOINT OR CONSOLIDATED
BASIS OR ON BASES INVOLVING CLAIMS
BROUGHT
IN
A
PURPORTED
REPRESENTATIVE
CAPACITY
ON
BEHALF OF THE GENERAL PUBLIC
(SUCH AS A PRIVATE ATTORNEY
GENERAL), OTHER SUBSCRIBERS, OR
OTHER PERSONS.
THE ARBITRATOR
MAY AWARD RELIEF ONLY IN FAVOR OF
THE
INDIVIDUAL
PARTY
SEEKING
RELIEF AND ONLY TO THE EXTENT
NECESSARY
TO
PROVIDE
RELIEF
WARRANTED BY THAT INDIVIDUAL
PARTY’S CLAIM. THE ARBITRATOR MAY
NOT AWARD RELIEF FOR OR AGAINST
ANYONE WHO IS NOT A PARTY. THE
ARBITRATOR MAY NOT CONSOLIDATE
MORE THAN ONE PERSON’S CLAIMS,
AND MAY NOT OTHERWISE PRESIDE
OVER ANY FORM OF A REPRESENTATIVE
OR CLASS PROCEEDING. THIS WAIVER
OF CLASS ACTIONS AND COLLECTIVE
RELIEF IS AN ESSENTIAL PART OF THIS
ARBITRATION PROVISION AND CANNOT
BE SEVERED FROM IT. THE REMAINING
PORTIONS
OF
THIS
ARBITRATION

42a
PROVISION ARE NOT ESSENTIAL PARTS
OF THIS ARBITRATION PROVISION AND
CAN BE SEVERED FROM IT BY A COURT
OF COMPETENT JURISDICTION.
i. Arbitral Fees and Costs. If your claim
seeks more than $75,000 in the aggregate, the
payment of the AAA’s fees and costs will be
governed by the AAA rules. If your claims
seek less than $75,000 in the aggregate, the
payment of the AAA’s fees and costs will be
our responsibility. However, if the arbitrator
finds that your Dispute was frivolous or
brought for an improper purpose (as measured
by the standards set forth in Federal Rule of
Civil Procedure 11(b)), the payment of the
AAA’s fees and costs shall be governed by the
AAA Rules and you shall reimburse us for all
fees and costs that were your obligation to pay
under the AAA Rules. You may hire an attorney to represent you in arbitration. You are
responsible for your attorneys’ fees and additional costs and may only recover your attorneys’ fees and costs in the arbitration to the
extent that you could in court if the arbitration is decided in your favor. Notwithstanding
anything in this Arbitration Provision to the
contrary, we will pay all fees and costs that we
are required by law to pay.
j. Survival. This Arbitration Provision shall
survive the termination of your Service(s) with
us.

43a
k. For New York Residents. You may elect
to resolve a Dispute for TV through the
New York Public Service Commission in
accordance with NYCRR 16§890.709(a)
and NYCRR 16§709(c).

